<html>
<title> - JUMPSTARTING MAIN STREET:. BRINGING JOBS AND WEALTH BACK TO FORGOTTEN AMERICA</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                       JUMPSTARTING MAIN STREET:
                     BRINGING JOBS AND WEALTH BACK
                          TO FORGOTTEN AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2021

                               __________

                           Serial No. 117-29

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov
                           oversight.house.gov
                             docs.house.gov
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-855 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                     Russell Anello, Staff Director
               Katie Thomas, Subcommittee Staff Director
                    Amy Stratton, Deputy Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                

                      Subcommittee on Environment

                    Ro Khanna, California, Chairman
Jim Cooper, Tennessee                Ralph Norman, South Carolina, 
Alexandria Ocasio-Cortez, New York       Ranking Minority Member
Rashida Tlaib, Michigan              Paul A. Gosar, Arizona
Jimmy Gomez, California              Bob Gibbs, Ohio
Raja Krishnamoorthi, Illinois        Pat Fallon, Texas
Cori Bush, Missouri                  Yvette Herrell, New Mexico
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 16, 2021....................................     1

                               Witnesses

Rick Bloomingdale, President, Pennsylvania AFL-CIO
Oral Statement...................................................     6
Brandon Dennison, Founder and Chief Executive Officer, Coalfield 
  Development
Oral Statement...................................................     9

Catherine Coleman Flowers, Founder, Center for Rural Enterprise 
  and Environmental Justice
Oral Statement...................................................    11

Dr. Darrick Hamilton, Henry Cohen Professor of Economics and 
  Urban Policy, The New School
Oral Statement...................................................    12

Ms. Michelle Martinez, Acting Executive Director, Michigan 
  Environment Justice Coalition
Oral Statement...................................................    14

Shay Hawkins, President, Opportunity Funds Association
Oral Statement...................................................    16

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              


  * No additional documents were entered into the record for this 
  hearing.


 
                       JUMPSTARTING MAIN STREET:.
                     BRINGING JOBS AND WEALTH BACK
                          TO FORGOTTEN AMERICA

                              ----------                              


                        Wednesday, June 16, 2021

                   House of Representatives
                Subcommittee on Environment
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 1:07 p.m., in 
room 2154, Rayburn Office Building, Hon. Ro Khanna (chairman of 
the subcommittee) presiding.
    Present: Representatives Khanna [presiding], Maloney, 
Tlaib, Gomez, Bush, Norman, Gibbs, Fallon, and Herrell.
    Mr. Khanna. [Presiding.] The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. We will recess if there 
are votes. I don't want any members on the committee to miss 
votes.
    I now recognize myself for an opening statement before 
turning to our Ranking Member.
    The purpose of this hearing is very simple. It is to show 
that a climate agenda must be, can be, will be additive to 
communities that are struggling. The President's climate agenda 
will create jobs and bring prosperity to places across this 
country, towns across this country, whether in Pennsylvania, or 
South Carolina, or West Virginia, and will not take away any 
opportunities. Today we will hear from witnesses about how to 
create growth for towns and cities that have lost manufacturing 
and fossil fuel jobs. These losses of jobs are taking place and 
have nothing to do with our government policy. They are due to 
automation, in many cases, and de-industrialization, which was 
driven by mistakes in government policy. But we need to be able 
to fix that by offering these communities new opportunities, 
new jobs, that are now available with a strong investment in 
clean technology.
    Unfortunately, jobs have been in decline since the 1980's 
in manufacturing. Jobs have also been in decline in the coal 
industry since 1985 when there were 178,000 coal jobs, but 
because of automation, there are now only 42,500 jobs, with 
most of the decline happening actually in the 1980's and the 
1990's. The pandemic has created another economic crisis. As of 
May, 9.3 million people were unemployed, and the unemployment 
rate is still too high at 5.8 percent. There are 7.6 million 
fewer jobs in the U.S. since the pandemic began, and there are 
over 20 million workers who are still being harmed to this day 
by the pandemic. That includes Black and brown communities that 
are experiencing unemployment the most and rural communities 
that have also been particularly hard hit.
    You know, in my district, we have over $10 trillion of 
market cap in Silicon Valley of companies, and yet in towns, 
particularly small towns, towns less than 50,000 people, wages 
have stagnated in this country since 2008 and jobs have 
declined. That must change. The unemployment rate is four 
percentage points worse for Black Americans and two points 
higher for Latinx Americans, a situation that is unjust. Women 
are leaving the work force at an alarming rate. The work force 
participation rate for women is 57.4 percent, a level not seen 
since 1988. One-point-seven-nine million fewer women are in the 
work force since the pandemic began, almost 2 million jobs 
lost.
    We have little time to act at the same time on the climate 
crisis. The U.S. and the rest of the world, as everyone knows, 
must achieve net zero emissions across all sectors of the 
economy by 2050. This is what the science tells us. This can 
only be accomplished with immediate mobilization. We must 
invest in renewable energy, sustainable agriculture, zero-
emission transportation, clean industry, and efficient and 
electrified buildings. These are investments in jobs, and those 
communities that are struggling must be prioritized. Those 
communities that are most reliant on the fossil fuel industry 
must be prioritized. They must be told and promised that we are 
going to bring new jobs first, that the government policy is 
going to bring jobs to their communities, not take any jobs 
away. We can solve the climate and employment crisis at the 
same time.
    According to a study on the THRIVE agenda, an investment of 
$1 trillion per year in a clean economy will create 15.5 
million jobs, many of those jobs precisely in the communities 
that have been left behind, jobs in the heartland of our 
country, jobs in Black and brown communities. These investments 
would also put the country on track to stay below the 1.5-
degree Celsius of warming. They would revitalize forgotten 
communities that have lost manufacturing and fossil fuel jobs. 
They must be, in many cases, union jobs. Strong labor and 
equity standards will ensure that these are good jobs. We can't 
tell a worker who is making 30 bucks an hour and had benefits 
that suddenly they are going to be in a job that isn't as good. 
That is unfair. These jobs must be as good as the jobs that 
communities have lost, if not better.
    The President's American Jobs Plan is a good start to this 
crisis as is the President's infrastructure plan. Climate is 
infrastructure because climate is about creating new jobs and 
building the modern infrastructure in communities that are 
hurting. The THRIVE Act, which I have co-sponsored, will also 
provide family sustaining union jobs for 15 million Americans, 
as will the WATER Act, which I am a proud co-lead on. These 
bills are the kind of solutions that Congress should implement 
to address the historic de-industrialization and discrimination 
that we face as a Nation. I hope that we will have a 
conversation, and I look forward to hearing from our experts on 
what we can do to create these new jobs for the 21st century in 
left-behind communities.
    With that, I now recognize the distinguished Ranking 
Member, Mr. Norman, for his opening statement.
    Mr. Norman. Thank you so much, Chairman Khanna, for holding 
this hearing, and thank you to the witnesses for taking your 
time to appear.
    The title of this hearing is, ``Jumpstarting Main Street: 
Bringing Jobs and Wealth Back to Forgotten America.'' This is 
an ironic title for the hearing considering that it is the 
forgotten who are the ones that are being left behind by this 
Administration. The President's American Jobs Plan would place 
an enormous financial burden on the American taxpayer, and 
particularly low-income Americans who are suffering 
disproportionately from spikes in inflation. Ask anybody, have 
you filled your car up with gas lately?
    The American Jobs Plan calls for hundreds of billions of 
dollars to be spent on reducing climate and energy emissions in 
order to address climate change as one of the greatest 
challenges of our time. The plan includes a very vague $213 
billion proposal that will produce, preserve, and retrofit more 
than 2 million affordable and sustainable places to live. I am 
very interested to learn more about the plans for spending this 
massive sum of taxpayers' money and how that will bring jobs 
and wealth back to forgotten America. To say that I am 
skeptical is an understatement.
    Over the past year-and-a-half, the world's economy has 
essentially been shut down due to the COVID-19 pandemic. 
However, even with this halt in activity, a recent National 
Oceanic and Atmospheric Administration, the NOAA, report from 
April of this year shows that it barely made an impact on the 
amount of carbon dioxide in the atmosphere. If the most 
unparalleled shutdown in human activity that closed schools and 
businesses all around the world barely impacted CO2 levels, it 
raises serious questions about whether spending massive amounts 
of the United States' taxpayer money will actually affect the 
climate, especially while countries like China and India 
continue to pollute at record levels.
    When Ms. Greta Thunberg appeared before our committee, I 
asked her what leverage are you going to use with China to 
incentivize them to cut their emissions. Her only response was 
we will ask them and we will show through leadership. We are 
dealing with a communist country, and that is not the type of 
leverage that makes them respond to whatever we do.
    The United States has made great strides when it comes to 
emissions. The most recent U.S. EPA Annual Air Quality Report 
shows that we are leading the world in reducing emissions, 
having reduced more than the next 12 emission-reducing 
countries combined. Because these reductions have come as a 
result of innovation and market forces, energy costs have 
decreased nationwide. The progress made in energy innovation 
during the Trump Administration is at risk because of the 
radical ideas the left is proposing. The Green New Deal would 
damage our economy and do away with affordable energy while 
destroying millions of jobs, as has occurred in the shutdown of 
the Keystone pipeline and relying on countries that do not have 
the best interest of the United States.
    Americans all over the country are dealing with the 
realities of the Biden Administration's policies. Gas and 
lumber prices have skyrocketed since January. Lumber prices are 
up over 400 percent since this time last year, and in the past 
few weeks, I have seen hardworking South Carolinians waiting in 
long lines at the gas station. This is not the American energy 
dominance that we had seen over the prior four years during the 
Trump Administration. As representatives, we will continue to 
support responsible policies that work to solve our problems by 
promoting innovation and investing in clean energy 
infrastructure. However, I fear that a premature move away from 
fossil fuels, particularly for poor areas, means that they will 
continue to have little access to the type of cheap, reliable 
energy that enables economic growth.
    I look forward to hearing from Mr. Shay Hawkins today from 
the Opportunity Fund Association to learn more about the work 
he is doing to help promote opportunity fund investments in 
distressed rural and urban communities. We should be looking at 
ideas like opportunity funds to ensure that America is able to 
help families and businesses respond from the COVID-19 pandemic 
instead of relying on massive government mandates that will 
only hamper and basically stop the recovery. The United States 
has abundant clean energy natural resources. We must use those 
resources to advance American interests while continuing to 
lead the world in emissions reductions.
    Thank you, Mr. Chairman, and thank you to each of the 
witnesses.
    Mr. Khanna. Thank you, Mr. Norman. And while we obviously 
have differences in ideology that are clear, I have always 
appreciated your willingness to look for common ground on this 
committee.
    I now recognize the distinguished chair of the full 
committee, which should be a testament to the witnesses as our 
distinguished chair doesn't join every hearing, so we are 
really honored that Carolyn Maloney, our chair, is with us. 
And, Chair Maloney, if you would give your opening statement.
    Mrs. Maloney. Thank you, Chairman Rho Khanna and Ranking 
Member Norman, for bringing the subcommittee's attention to 
this vitally important issue. The United States has a once-in-
a-generation opportunity to combat the climate crisis and 
create millions of good-paying jobs. Crucially, the American 
Jobs Plan would commit the U.S. to a standards investment in 
justice approach. Ambitious standards will help to reduce 
carbon emissions on the timeline science says is necessary to 
secure a livable climate. Direct investments spurs immediate 
green deployment and job creation, and justice humanizes every 
dollar and every agency decision for a generation.
    Last Congress, the Oversight Committee and this 
subcommittee partnered on a series of staff reports called 
``The Urgent Need for Climate Action.'' These reports uncovered 
the staggering cost of runaway pollution in several states and 
the United States overall, and daunting as the numbers are, I 
know that one of the key findings from that staff report is 
that the U.S. will ``save lives, reduce illnesses, and save 
trillions of dollars by acting now at a local, state, regional, 
and national level.'' The most immediate benefits will come 
from eliminating what committee staff reports called the 
primary impacts of fossil fuel pollution. The carbon emissions 
that drive global climate change also release deadly gases 
teeming with particles that lodge in our lungs and enter the 
bloodstream, leading to serious health impacts in many 
communities. And in my own state of New York, reducing 
emissions at the level consistent with the Paris Agreement 
would save 400,000 lives simply due to cleaner air.
    Because of the climate crisis, drawing down emissions is a 
top priority, but in tackling this problem, we must ensure we 
target the pollution crisis equitably, focusing on frontline 
communities that are hurt first and worst. I am proud to 
support the THRIVE Act and its sustained investment model. And 
with the transition to a renewable economy, we can beat back 
the climate crisis and move forward with more environmental 
justice. Fundamentally, we need to direct at least 40 to 50 
percent of investments to the most impacted communities, 
meeting and hopefully exceeding the goal set by President Biden 
in the American Jobs Plan. As we will hear today, these 
communities are poised to lead the way to a green industrial 
transformation.
    I want to thank you, Chairman Ro Khanna, for having this 
hearing, and I look forward to working with you as you move 
forward with proposals to green America, create more jobs, 
create a healthier environment, and I look forward to the 
testimony. I yield back.
    Mr. Khanna. Thank you, Chairwoman Maloney. Now I will 
introduce our distinguished witnesses. Our first witness today 
is Rick Bloomingdale, president of the Pennsylvania AFL-CIO, 
who I remember said the key is to always talk about bringing 
jobs first. Then we will hear from Brandon Dennison, founder 
and chief executive officer of Coalfield Development in West 
Virginia, who has really been working with local communities. 
Next we will hear from Catherine Coleman Flowers, founder of 
the Center for Rural Enterprise and Environmental Justice in 
Alabama; again, someone who is grounded and rooted in her 
community. Then we will hear from Dr. Darrick Hamilton, the 
Henry Cohen Professor of Economics and Urban Policy at the New 
School, really one of the most brilliant public intellectuals 
of our time. Next, we will hear from Michelle Martinez, acting 
executive director of the Michigan Environmental Justice 
Coalition, who is doing extraordinary work, and I want to 
recognize Representative Gomez on our committee for bringing 
her work to our attention. Finally, we will hear from Shay 
Hawkins, CEO of the Opportunity Funds Association. Thank you 
for coming in person.
    The witnesses will be unmuted so we can swear them in. 
Please raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [A chorus of ayes.]
    Mr. Khanna. Let the record show that the witnesses answered 
in the affirmative. Thank you.
    Without objection, your written statements will be made 
part of our record.
    With that, Mr. Bloomingdale, you are now recognized for 
your testimony.

STATEMENT OF RICK BLOOMINGDALE, PRESIDENT, PENNSYLVANIA AFL-CIO

    Mr. Bloomingdale. Thank you, and good afternoon, Chairman 
Khanna, Ranking Member Norman, and Chairwoman Maloney, and 
members of the House Oversight Subcommittee on the Environment. 
Thank you for inviting me to testify today. As was said, my 
name is Rick Bloomingdale, and I am the president of the 
Pennsylvania AFL-CIO. We represent over 700,000 union members 
and more than 50 international unions across the Commonwealth 
of Pennsylvania. I am here before the subcommittee today to 
testify regarding job creation in de-industrialized blue collar 
communities across Pennsylvania as well as America.
    Look around your districts. Our people in our lands are 
struggling all across our Nation. As the past years have 
progressed, we have gradually experienced the toll that the 
past and latest recessions are having on our communities 
throughout the Commonwealth and across the country. We must 
understand the weight of living paycheck to paycheck that many 
of our communities carry every single day. We need to target 
investments in areas of the country that have been de-
industrialized and historically disadvantaged by working 
together to create an economically and environmentally 
sustainable pathway forward.
    Over the past year-and-a-half, Pennsylvania has experienced 
the highest unemployment rate in any of our lifetimes. We need 
to understand the importance our infrastructure plays in 
creating and maintaining good jobs that provide a steady 
livelihood to hardworking Pennsylvanians. Diversifying our 
energy work force through the addition of good, innovative jobs 
can play a critical role in how we build the future our workers 
and families deserve. We must be clear: environmental 
sustainability cannot be economically unsustainable. To combat 
and reverse climate change, we need to evolve how we produce 
energy, expand energy efficiency for usage and conservation, 
cleanup our atmosphere through carbon capture and 
sequestration, as well as many other innovative energy ideas. 
There is no singular solution, but, rather, with multiple 
steps, we can create clean jobs that put working people first.
    And let me just add that Pennsylvania is an energy 
exporter. Many people may not know this: the first oil well in 
America was drilled in Pennsylvania. Before that, we were the 
major leader in coal production and powered the railroads that 
built and expanded our Nation. Pennsylvania is proud of its 
energy history and hopefully our energy future as we move 
forward in new economic and environmentally sustainable energy 
industries. It is critical we create good jobs in advance of 
any actions that cause reductions in unemployment and fossil 
fuel use. Working families and communities want to know and 
deserve to know that doing what is necessary to fight climate 
change won't result in unemployment or a reduced standard of 
living. Rather than telling people you are going to have to 
transition, let's make sure jobs are there first, and then the 
transition happens rather than rolling the dice and putting 
people out of work before we create the good union jobs that 
will come to our struggling communities.
    The shift to clean energy is a tremendous opportunity to 
create union jobs. The Federal Government must lead the way by 
insisting that public dollars are spent on American-made 
products. This should include renewable energy goods, clean 
vehicles, and while also ensuring that high labor standards are 
built into every action and attached to every Federal incentive 
for clean energy. We deeply appreciate President Biden's call 
to invest in coal and other fossil fuel communities to create 
good jobs in new industries and by cleaning up abandoned mines 
and wells. We call on Congress to support this order with the 
funding it requires, while doing more to require high labor 
standards.
    And just quickly, a little bit of history about Appalachia 
and that part of Pennsylvania. The Federal Government--this is 
nothing new--trying to help in Appalachia, the attempt by the 
Federal Government to assist struggling communities is not new, 
as I said. In fact, the AFL-CIO Appalachian Council is an 
organization governed by the chief executive officers of the 
AFL-CIO state labor councils in the 13 states of the 
Appalachian region. Since 1964, the organization has developed 
and implemented a broad range of social services through 
various projects designed to lead to full employment, to the 
extent possible, within a region blighted by poverty and 
joblessness. The Council also recognized as technological 
advances and economic forces brought about changes in the 
workplace, workers would be required to have additional skill 
sets that had not been necessary in previous generations. Much 
of this is still true today.
    Lately, we have been engaged with a group called Reimagine 
Appalachia, and while many communities throughout our country 
have been negatively impacted by de-industrialization, I would 
like to focus on a strong initiative building out of Appalachia 
that can serve as a framework for future success as this 
Administration creates new pathways to build back better. 
Reimagine Appalachia is a coalition formed of economic and 
environmental community leaders and grassroots organizations 
who are working to address the obstacles and propose solutions 
on rebuilding a local economy that can adequately support 
workers, communities, and the environment in the face of de-
industrialization. Rather than government officials coming into 
local communities that are hurting and implementing change 
without leveraging the voices and experiences of the local 
population, Reimagine Appalachia is unique because it has built 
forward from the input of local residents, those whose lives 
are drastically and directly impacted and how they re-imagine 
their Appalachia. Together, the Coalition has been working to 
address the problems that these local stakeholders have 
highlighted, incorporating their voices into creating a 
blueprint for economically and environmentally sustainable 
change.
    This plan shows how Federal resources can support high-
quality jobs and sustainable manufacturing, a modern Civilian 
Conservation Corps, and by building out the region's broadband 
infrastructure, which is critical to any growth of any 
businesses across America. The final report from a study by the 
Political Economy Research Institute, PERI, at the University 
of Massachusetts-Amherst, shows that the blueprint has the 
potential to provide good, sustainable jobs for 250,000 
Pennsylvanians every year for the next 10 years. The number is 
for Pennsylvania alone. The job creation potential equates to 
hundreds of thousands more jobs for each of our neighboring 
states in the Appalachian region. These Federal investments 
would not only represent a counter force in the economic 
collapse associated with COVID-19, they would also build the 
foundation for a more sustainable and vibrant Appalachia moving 
forward.
    But first we need to combat negative impacts that will 
happen to fossil fuel industry workers. There are roughly 
64,000 Pennsylvanians working in fossil fuel-based industries, 
including oil and gas extraction, coal mining, and refineries. 
The PERI analysis, driven by emissions reductions that come, in 
part, from reduced energy consumption of high-emission fuels, 
determined that by the year 2030, there would be 28,702 fewer 
fossil fuel industry workers, about 1,000 of which each year 
would retire, but the rest of which would require reemployment. 
Each year for the next 10 years, roughly 1,800 workers will 
deserve priority status for reemployment and jobs created via 
national climate change legislation. The PERI analysis 
recommends, among other things, income support from 
supplemental wage insurance for any difference in pay levels 
that result from moving into cleaner energy industries. Some 
additional training for new work may also be necessary. For 
this purpose, Federal funding should be allocated toward union 
apprenticeship programs providing continuing learning 
opportunities.
    I am going to jump right to the conclusion here because 
while I can't see the timer, I am guessing my five minutes is 
almost up, but we do need to invest in the future. This is not 
an ultimatum to protect either jobs or the climate. We 
desperately need to do both. We need a vision for the future 
that centers workers and their families and that includes 
workers who aren't currently in the energy sector. When we talk 
about energy, we want to create more jobs. This means creating 
more work for people already in the industry and a pathway to 
the good jobs for people who want to be in the energy 
production industry. There is room for everyone if we do this 
the right way.
    As we look toward building a pathway to a better future for 
our communities hardest hit through de-industrialization over 
the past decades, we must create policy that truly centers the 
vocalized needs from our local work forces in these areas. 
State policymakers should leverage opportunities for stimulus 
and recovery. The Federal Government also has a role to play 
with advancing a just, people's budget for environmental 
protection and conservation in Pennsylvania as well as the rest 
of the Nation that helps to put residents back to work while 
cutting carbon emissions and curbing water pollution.
    Actions we can take include passing the PRO Act to ensure 
good, sustainable union jobs are available as we create new 
jobs and industries that target infrastructure, rehabilitation, 
and development moving forward; creating a new grant program 
that supports intermediary organizations that work with 
employers to promote quality jobs; leveraging public funds to 
help employers and labor management partnerships; reduce the 
cost of training new hires to fill quality jobs and providing 
funding to discourage further layoffs and, instead, encourage 
employers to train and redeploy workers into the industries we 
will be transitioning into; maximizing the creation of good 
union jobs by requiring project labor agreements on 
construction projects receiving $100,000 or more in Federal 
funds; bundling small projects into aggregate contracts of at 
least $1 million and enabling to form unions and bargain 
collectively; targeting the benefits of job creation to 
impacted workers and communities by developing a funding 
formula that prioritizes communities previously left behind; 
creating targeted hiring programs using first source hiring 
systems for historically disadvantaged groups residing within a 
specific radius of a project.
    Mr. Khanna. Mr. Bloomingdale?
    Mr. Bloomingdale. Requiring a percentage of work hours to 
be completed by apprentices in registered or locally based 
programs.
    Mr. Khanna. Mr. Bloomingdale? Maybe if you could just wrap 
up in a sentence or two.
    Mr. Bloomingdale. I will finish up right here. Investments 
and doing this right can lead to concrete, well-paying jobs and 
help serve as a blueprint for how we sustainably diversify our 
energy work force over the decades to come. As we map a more 
sustainable future, we must continue to work to ensure that the 
working class aren't left behind as we build forward together. 
Thank you very much, and I apologize for going over the time 
limit.
    Mr. Khanna. Thank you for your testimony. Mr. Dennison, you 
are now recognized for your testimony.

  STATEMENT OF BRANDON DENNISON, FOUNDER AND CHIEF EXECUTIVE 
                 OFFICER, COALFIELD DEVELOPMENT

    Mr. Dennison. Chairman Khanna, Ranking Member Norman, 
committee members, distinguished guests, thank you for the 
opportunity to share my perspective from the ground here in 
West Virginia. My name is Brandon Dennison. I'm a lifelong West 
Virginian. I'm a proud West Virginian. Even though many make 
fun of my people, in an era of political correctness, it is 
still somehow totally acceptable to demean rednecks, 
hillbillies, trailer park trash, things like that. We can get 
over the insults, but the deeper damage resulting from 
America's scorn for Appalachia results from generations of 
economic extraction, exploitation, and struggle. The addiction 
epidemic, which was ravaging our hills and hollers even before 
the COVID pandemic, is directly linked to the economic 
hopelessness many of us feel, not just here in Appalachia, but 
throughout rural America.
    The country has demanded our natural resources, our high 
rate of military volunteers, our preserved forests, but the 
country has not supplied us with the long-term investments 
necessary to enjoy the kind of wealth that bigger cities have 
enjoyed. Broken promises have piled up here both from the 
public and the private sectors. Many communities still lack 
basic infrastructure, such as clean drinking water or cell 
service, let alone internet service. Perhaps the most egregious 
promise and broken promise was the false hope that the coal 
industry could ever again be the engine of job creation that it 
once was. But please understand this: even when coal boomed, we 
still had some of the highest poverty rates in North America 
here in Appalachia. In too many communities, the coal miners 
really were the lucky ones. They got some of the few good-
paying jobs around. They got to keep their dignity. Our needs 
in Appalachia are much larger than merely finding a solar job 
from a coal job, and they are much more complex. We need large 
and sustained place-based investment of a magnitude capable of 
reversing decades of disinvestment and decay.
    The organization I founded in 2010, Coalfield Development, 
is creating new employment-based social enterprises in a 
diverse array of sectors in order to model what a new and 
diverse economy can actually look like. We helped start the 
first solar company in our community, and we launched it out of 
an old, beat-up, used ice cream truck. We launched a statewide 
agriculture cooperative that now includes over 100 farmers. It 
started on a former mountaintop removal site upon which many 
figured nothing could ever grow again. We hire local workers to 
revitalize abandoned and dilapidated buildings, and we put new 
businesses and affordable housing in those old buildings.
    The businesses we create purposely hire people who face 
barriers to employment, more than 300 new jobs so far: those in 
recovery from substance use disorder, racial minorities, people 
on public assistance, and former coal miners. These folks work 
according to what we call our 33-6-3 model; that is, 33 hours 
of paid work each week, six hours of higher education, and 
three hours of personal development. We learned early on that 
job training alone is not enough to build a new post-coal 
economy. We have to provide people with the training, but also 
the new job at the same time. It has got to be paid because 
people can't put their lives on hold to do a training program. 
They've got families to feed.
    Social enterprises are a unique business model that can 
achieve both the training and the direct employment our people 
need. They can also demonstrate very tangibly what a new 
economy actually looks like. We are pioneering new markets for 
our region. We are not asking for special treatment here in 
Appalachia. We are asking for a fighting chance. Appalachians 
have given so much to America, and we still have so much more 
to give. We have the hands-on skills to literally rebuild a new 
sustainable economy. We have the skills to retrofit buildings 
to be more energy efficient, to install solar systems, to 
reclaim scarred landscapes, to grow local food, and so much 
more.
    Too often, in discussions about a greener economy, it is 
frustrating when rural extractive economies are sort of thought 
of as collateral damage, and the idea is we need to get subsidy 
there to mitigate the damage. I see that as totally backward. I 
see rural America leading the way on a greener economy. We have 
the gumption and the grit to do so, and really all that is 
missing is the investment at a scale that's really necessary, 
given both the size of the challenge but also the size of the 
opportunity here in Appalachia and across rural America.
    I ask this committee to consider big and bold investments 
in our region. Thank you very much.
    Mr. Khanna. Thank you, Mr. Dennison. Next, Ms. Flowers, you 
are now recognized for your testimony.

  STATEMENT OF CATHERINE COLEMAN FLOWERS, FOUNDER, CENTER FOR 
           RURAL ENTERPRISE AND ENVIRONMENTAL JUSTICE

    Ms. Flowers. Thank you, Chairperson Khanna, Ranking Member 
Norman, and all the members of the committee for the 
opportunity to testify. My name is Catherine Coleman Flowers. I 
serve as the development manager for the Equal Justice 
Initiative and the founding director of the Center for Rural 
Enterprise and Environmental Justice in Montgomery, Alabama. I 
also serve as a practitioner in residence at Duke University, a 
member of the board of advisors for the Center for Earth Ethics 
at Union Theological Seminary, as well as the boards of the 
National Resource Defense Council and the Climate Reality 
Project.
    In 2020, I was awarded a MacArthur Fellowship in 
environmental health, and I authored the book entitled Waste: 
One Woman's Fight Against America's Dirty Secret. In this book, 
I uncovered the extent to which rural America has been denied 
access to sustainable and resilient sanitation infrastructure. 
I am a proud native of Lowndes County, Alabama, a rural area 
located between Selma and Montgomery. Like Montgomery, the 
cradle of the modern-day civil rights movement, or Selma, known 
for its voting rights history, Lowndes County, too, has a proud 
history of fighting for equality.
    In addition, in the early 1900's, sharecroppers organized 
for jobs and justice. Many of its sons and later its daughters, 
including my father, three brothers, and myself, served in the 
United States military. We have a deep legacy of holding up 
core democratic values even when they failed us. That failure 
is exemplified through healthcare disparities, low-wage jobs, 
unemployment, unsafe mobile homes, high electric bills, 
straight pipe-in of raw sewage, or failing wastewater systems. 
I have often taken policymakers and philanthropist to Lowndes 
County to see the inequalities that exist and to hear from 
local people what is needed to address them. At the height of 
the pandemic, Lowndes County had the highest death and 
infection rate per capita in the state of Alabama. Sadly, as 
one travels through Lowndes County now, the fresh graves of 
victims of COVID are a constant reminder of what happens when 
poverty, failing or no sanitation infrastructure, and climate 
change comes together.
    Because I am a country girl, I speak in plain English like 
I would if I was home speaking to local people. In the town of 
Hayneville, Alabama, for more than 20 years, Ms. Charlie Mae 
Holcombe has been telling people about the sewage from a nearby 
lagoon that has been backing up into her home. Yet the failing 
infrastructure continues to fail, and she continues to cry for 
help. She is paying a wastewater treatment fee, yet all the 
town can provide is a pump truck to pump sewage out of her yard 
from time to time.
    And now a similar design of what we know is not working is 
playing for the Town of White Hall. This sewage lagoon is 
sitting next to an elementary school. A member of their water 
board said that the liability for the septic systems is being 
transferred to residents where the systems are being placed in 
40 homes that will be connected to the lagoon. Yet it begs one 
to question, how can Federal money be used to buy equipment 
that does not come with any service or performance warranties, 
especially when we know they not only fail in Lowndes County, 
but throughout Alabama and the Nation? In nearby Montgomery, 
Alabama, we learned that numerous older Black neighborhoods are 
not connected to the sewer, yet they pay a flat rate for water 
and sewer. Many are on failing septic systems that are 
deteriorating even more frequently because of rising water 
tables. This is indicative of the sanitation inequity that 
exists throughout the U.S. I have seen more raw sewage on the 
streets of Centreville, Illinois, than I have seen in Alabama. 
In Mount Vernon, New York, people are crying for help, and in 
Martin County, Kentucky, they are asking for sanitation justice 
and good-paying jobs as well.
    The American Jobs Plan provides an opportunity to deal with 
the forgotten in rural, Black, brown, and indigenous 
communities that are experiencing the most severe job losses, 
untimely deaths, poor living conditions, health crises, and 
climate injustice. It is an opportunity to right some wrongs 
and to make America a model of ingenuity where we have clean 
air, clean water, resilient infrastructure, and good-paying 
jobs for everyone. With this funding should come guardrails 
that will ensure that Mrs. Charlie Mae will not get more sewage 
in her yard and home, lagoons are not built next to schools, 
and each onsite system or any technology sold comes with some 
performance and parts warranty we have come to expect from a 
car, a hot water heater, or a heating and cooling system. The 
guardrails should include stringent enforcement so that people 
of Alabama and throughout America would get relief.
    I did not set out to be a climate activist, nor did all the 
civil rights leaders I grew up around that bent the arc toward 
justice. We all have the power to change our communities for 
the better and we should, but I also implore our leaders and 
policymakers to recognize the areas outside of urban areas, 
especially those urban centers that do not have the privilege 
to flush and forget. I thank you for this opportunity to speak 
with you today. It is an honor, and I look forward to 
continuing conversation about environmental justice and 
functioning wastewater systems for all Americans. Thank you.
    Mr. Khanna. Thank you, Ms. Flowers. Dr. Hamilton, you are 
now recognized for your testimony.

STATEMENT OF DARRICK HAMILTON, PH.D., HENRY COHEN PROFESSOR OF 
           ECONOMICS AND URBAN POLICY, THE NEW SCHOOL

    Mr. Hamilton. Thank you, Chairman. Good afternoon, Chairman 
Khanna, Ranking Member Norman, Chairwoman Maloney, and other 
esteemed members of the committee. I am Darrick Hamilton, the 
Henry Cohen Professor of Economics and Urban Policy and a 
university professor at The New School, and the director of the 
Institute on Race and Political Economy.
    Stimulus plans championed on both sides of the aisle use 
tax incentives and deregulation to cajole or bribe a private 
sector with already low tax bills and record-breaking profits 
to provide more jobs and rebuild the Nation's crumbling 
infrastructure. This approach leaves workers vulnerable to the 
whimsical nature of trickle-down employment as well as the 
instability of contingent work. Moreover, it often transfers 
the value of our public infrastructure assets to corporate 
interests with no guarantee that the infrastructure will 
actually be built in the first place. In contrast, a worker-
focused industrial policy with direct public hiring ensures not 
only net new jobs, but net new quality jobs, jobs that build 
our public, physical, health, and human infrastructure, green 
our economy, and create a care economy for all Americans.
    This form of stimulus directly targets American workers and 
provides for a more efficient multiplier with fair and balanced 
growth that promotes our shared prosperity. An EPI report, 
entitled ``The Productivity Pay Gap,'' traces the relationship 
between economic growth and worker compensation since the mid-
20th century, and finds that between 1948 and 1979, our 
Nation's productivity rose 108 percent, while, at the same 
time, worker compensation rose a comparable 93 percent. That is 
almost a 1-to-1 lockstep, balanced relationship. In contrast, 
from 1979 to 2018, a period of our economy characterized by 
supply side economics, productivity rose by 70 percent, while 
real worker compensation rose by only 12 percent.
    This concept that I'm describing of building our physical 
and human infrastructure by way of direct public hiring, it's 
not new nor is it radical. It provides a direct source of 
employment. It triggers a multiplier stimulus effect across a 
panoply of economic activities. It enables workers, 
particularly those at the low end of the labor market, to 
bargain for better wages and benefits without the fear and 
destitution associated with the threat of unemployment. It 
structurally changes the U.S. economy away from low-wage work 
toward more moderate-and high-wage work. It addresses our 21st 
century physical and human infrastructure needs and reduces our 
vulnerability to natural disasters resulting from our unnatural 
climate change. It reduces the adverse effects of job 
discrimination. It provides an automatic stabilizer that 
addresses not only cyclical unemployment, but regional 
unemployment, areas that have been neglected and that suffer 
from de-industrialization. It provides checks for structural 
unemployment, recognizing that the private sector has never 
been adequate to supply enough good jobs for the American 
people. It eliminates the moral hazard problem associated with 
the implicit promise of bailout of the too-big-to-fail 
financial sector in times of economic crisis.
    The jobs could range from construction, education, health 
services, supportive housing, libraries, child and elder care, 
arts and culture, and projects designed to transform our cities 
to green, emission-free municipalities that are more 
sustainable and resilient. The Federal Government, states, 
Indian nations, local municipalities, community councils would 
conduct inventories of their needs and develop a job bank of 
tasks to be done. Priority would be given to the most urgent 
projects to aid the most distressed communities. The work would 
address our 21st-century infrastructure needs. Projects would 
produce tangible public benefits.
    The New Deal era shows that government can stimulate 
economic growth, protect our environment, and build our public 
infrastructure in a way that directly serves its people. Only 
this time we should ensure that these investments by both 
design and implementation are explicitly anti-racist and anti-
sexist, and do not exclude anyone. Access to jobs and social 
insurance programs that protect workers, such as universal 
childcare, paid leave, elder care, must truly be universal and 
ensure racial and gender equity.
    So in conclusion, we need a 21st century public 
infrastructure that prioritizes our shared prosperity by 
centering worker livelihoods as both good labor and industrial 
policy. Thank you.
    Mr. Khanna. Thank you, Dr. Hamilton. Now we will hear from 
Ms. Martinez. You are now recognized for your testimony.

  STATEMENT OF MICHELLE MARTINEZ, ACTING EXECUTIVE DIRECTOR, 
            MICHIGAN ENVIRONMENTAL JUSTICE COALITION

    Ms. Martinez. Thank you, and I want to thank you for the 
opportunity to present today, and specifically Vice Chair 
Rashida Tlaib, my Congresswoman where I live in the 13th 
District, for her leadership in Washington, DC. Thank you, 
Chairman Khanna, Chairwoman Maloney, Ranking Member Norman, and 
the other congresspeople present today. Thank you, 
Representative Gomez, for the invitation.
    My name is Michelle Martinez, and I work as the acting 
executive director for Michigan Environmental Justice 
Coalition. For 10 years, MEJC has been fighting for equal 
access to a clean environment and environmental justice with 
coalitional partners working from the Jimenez principles of 
democratic organizing. Over the last three years, MEJC has 
engaged in a powerful campaign with partners, like We Want 
Green, Too, the Citizens' Resistance Against Fermi 2, 
Solidarity, Michigan Welfare Rights, and more to do three basic 
things in Detroit: make energy affordable, healthy, and find 
community-owned renewable energy pathways.
    We feel that everyone, no matter where you live or what the 
color of your skin, deserves to be able to have access to 
affordable energy, to breathe clean air, to participate in the 
renewable energy economy. And what we have encountered is a 
matrix of corporate power and the politicians that they pay 
obscuring, obstructing, and denying our pathway to democracy 
and climate justice. For this reason, Congress needs to 
jumpstart the renewable energy economy with direct community 
investments, not just vague and uncertain benefits to areas in 
Michigan that are hardest hit by the long history of 
environmental contamination and disinvestment of the industrial 
sector. Detroit is not special. It's emblematic of the places 
all over the United States where racial inequality, pollution, 
and a disproportionate weight of all of the risks, with little 
to none of the benefits, of the fossil economy reign. A 
pollution-free economy is an opportunity to course correct from 
corporate greed to community health and wealth.
    Just to give a portrait of what people do in the face of 
disinvestment and crumbling infrastructure, I turn to testimony 
given by resident Kiava Stewart to the Michigan Public Service 
Commission, highlighting the plight of power outages. In 
Detroit, pre-pandemic, our monopoly utility, DTE Energy, 
performed over 200,000 shutoffs every year just in the 
southeast Michigan serviced territory. Detroit experienced 
death from power outages twice the rate of the suburbs. Ms. 
Stewart specifically talked about how during power outages, 
mothers in her community would pool food and redistribute to 
those who did not have food from refrigeration spoilage, going 
to great lengths to feed kids until the next SNAP benefits 
came. A recent report by the Georgia Institute of Technology's 
School of City and Regional Planning stated that a combined 
heat wave and power outage in Detroit could be worse in 
fatalities than the magnitude of Hurricane Katrina.
    The American Recovery Plan must be ambitious in its push to 
invest in the renovation of our energy system with community 
health and wealth at the center to solve the climate crisis. 
Detroit wants to go to work to fix the climate problem. As 
outlined in the THRIVE Act, $1.138 trillion is the estimated 
public investment in wind, solar, and geothermal energy that 
economic modeling shows is necessary to enable a 50-percent 
decrease in U.S. greenhouse gas emissions by 2030. Detroit 
wants these investments in our homes and in our schools to 
replace water systems and put solar on our roofs. But right 
now, fossil fuel proponents are pushing for false solutions 
that build out another generation of fracked gas, extend 
nuclear, extending their power and profit, threatening the most 
precious resource in the United States, the Great Lakes.
    While advocates, tribal leaders, municipalities are leading 
to shut down the Enbridge Line 5, utilities continue to build 
fracked gas pipelines, tethering the Great Lakes for another 
three generations to the risk and the threat of climate-causing 
methane gas, methane gas 20 times stronger a climate-causing 
gas and carbon dioxide. And for that reason, we must reject 
false solutions, like capture technology, credit trading as a 
solution.
    Today we experience such wild inequities in the energy 
system. University of Michigan researchers found that in 
Detroit, a city of 85 percent Black and Latinx residents, use 
energy less. We pay a higher proportion of our income on 
energy. We're overexposed to fossil pollution, and, as a 
result, we experience hospitalization and the costs from 
healthcare bills because of it at a much higher rate. We 
experience healthcare costs even from high heat events from 
that of our suburban white counterparts, demonstrating clearly 
that redlining and white flight that happened over the second 
half of the last century is defining the early stages of 
climate inequity. White suburban communities are just not 
experiencing the impact of energy system the same as Black and 
Latinx urban Detroit.
    The barriers to access renewable energy are big, and 
Congress must level the playing field with bold, direct 
community investments to ensure equitable development, 
equitable deployment of resources, fairness in the rate 
structure, access to capital, adequate education, job training, 
work force development, technical assistance, guaranteeing of 
minority business contracts to sustained resources that will 
combat the low wages, limited access to training, corporate 
monopolies, and the racial discrimination baked into the 
system.
    Of course, Detroit needs an increase in LIHEAP moneys. 
Absolutely we need this in an increasingly unaffordable energy 
system. But we need fair, affordable funding mechanisms for 
ownership and wealth creation that are aligned with climate 
justice. First, Congress can employ a national moratorium on 
all utilities shutoffs and debt relief, mandate affordable 
payment systems and levy heavy penalties for stranded assets, 
and enact a halt on the regressive mechanisms that allow 
companies to pass the risks of their decision to construct new 
fossil infrastructure onto rate payers. Next, the Federal 
Government can alleviate access barriers and reject false 
solutions with real solutions by offering direct grants, 
revolving loans to local entities to implement those community-
owned solar, distributed energy, and access to battery storage, 
and offer assistance to residents who are putting their own 
dime into the electrification of their homes. Our state----
    Mr. Khanna. Ms. Martinez, if you could just wrap up in a 
couple of sentences.
    Ms. Martinez. I'll close here with the investments that 
Congress need to make right now should address these issues. We 
need oversight, ensured adoption of the WHEJAC recommendations, 
including Justice 40 and EJ Mapping Tools. Thank you so much, 
and we look forward. Thank you for your time today.
    Mr. Khanna. Thank you, Ms. Martinez. I now would like to 
recognize Mr. Hawkins. You are now recognized for your 
testimony.

    STATEMENT OF SHAY HAWKINS, PRESIDENT, OPPORTUNITY FUNDS 
                          ASSOCIATION

    Mr. Hawkins. Thank you, Chairman Khanna, Ranking Member 
Norman, Vice Chair Tlaib, and Representative Gibbs from 
Northeast Ohio in my home state, and members of the 
subcommittee. It is a pleasure to be with you today. This is my 
fourth time testifying before Congress, but my first time 
testifying before the Environment Subcommittee here, and so 
thank you so much for having me.
    I am the co-founder and president of the Opportunity Funds 
Association, a trade association whose members are 
entrepreneurs, investors, and developers operating in 
opportunity zones. And this morning, I would like to discuss 
how opportunity zones are targeting private investment in areas 
of the country that have been de-industrialized and 
historically disadvantaged, and how opportunity zones can be 
expanded to help provide cleaner, more affordable, more secure 
energy. Further, I want to emphasize the importance of pursuing 
an infrastructure plan that makes significant investments in 
traditional infrastructure without crippling tax increases on 
small businesses and workers that would undermine the historic 
progress made prior to the pandemic in minimizing minority 
unemployment, and raising minority incomes.
    So prior to founding OFA, I served as the majority staff 
director for the Senate Finance Subcommittee on Energy, Natural 
Resources, and Infrastructure, and as tax counsel to Senator 
Tim Scott, where I helped him champion the Investing in 
Opportunity Act legislation authored by Senator Scott and 
Senator Cory Booker that became opportunity zones. And on this 
side of the Capitol, I was pleased to see that you, Chairman 
Khanna, as well as Chairwoman Maloney, and as well as 
Representative Cooper on this subcommittee were all co-sponsors 
of that legislation. That is very much appreciated.
    Recent IRS data shows that $24 billion has been raised and 
committed to investment in opportunity zones thus far, with 
billions being raised in the heart of the pandemic. And a 
recent report from the Council of Economic Advisers estimates 
that opportunity zones will lift 1 million Americans out of 
poverty and reduce poverty in designated zones by 11 percent. 
We are also seeing key investments in operating businesses 
taking root in opportunity zones in critical industries, such 
as clean energy. There are 475 solar installations producing 
more than 1 megawatt of activity in opportunity zones, as well 
as 127 wind farms, and 15 battery plants producing at least the 
same capacity as what we saw on the solar side. Out in Indiana, 
Hoosier Solar Holdings is embarking on a large-scale solar 
build-out project where they are looking to build six utility-
scale solar projects across four counties there in Indiana. OBE 
Power, a Hispanic-led software company based in Miami, recently 
raised $300,000 to fund an expansion of electric vehicle 
charging infrastructure with the goal of having 2,500 stations 
across the United States operational by 2023.
    And so Congress should look to encourage cooperation across 
opportunity-zone-oriented agencies. They should look to empower 
CDFIs to take a more direct role in opportunity-zone investing. 
We should look to make opportunity zones more transparent 
through legislation, such as the IMPACT Act that was introduced 
by Senator Sinema and Senator Scott last Congress, and should 
look to expand opportunity zones and extend that policy more 
directly. On the infrastructure side, again, we should look to 
pursue bipartisan infrastructure plans that do not raise taxes, 
and, instead, look to fund the infrastructure plan through 
transportation fees and redirecting existing funds to pay for 
that infrastructure build out.
    I appreciate, again, you allowing me to come to speak to 
the subcommittee, and I look forward to delving even more 
deeply into ways that we can bring more wealth and jobs to Main 
Street. Thank you.
    Mr. Khanna. Thank you, Mr. Hamilton. Right on time, as a 
former Senate staffer.
    Mr. Hawkins. Yes, sir.
    Mr. Khanna. The chair now recognizes himself for five 
minutes of questioning.
    Mr. Bloomingdale, I was struck by your phrasing that we 
must create jobs in advance of any reduction in employment, and 
that we must bring good jobs first before talking about a 
transition. You have really been in these communities, and I 
know you are very blunt. How best can we frame a climate agenda 
to speak to that concern and build the synergy between the 
climate movement and workers in these communities?
    Mr. Bloomingdale. Well, and thank you for the question, 
Congressman, and I will try to be as brief as I can because it 
is a complicated question, right, because you are dealing with 
people's livelihoods, and people, you know--change worries 
folks, as you well know. And one of our previous testifiers 
talked about the coal mining jobs, especially the unionized 
ones, were the good jobs in West Virginia. Folks could live a 
middle-class lifestyle, and that is the union difference, of 
course. But when you talk to people about change, it is 
troubling because, first of all, obviously, they may start to 
think about, do I have to move and am I going to have to sell a 
house in an economy where there are no jobs, because my job at 
the power plant, or at the coal mine, or, back in the 80's, at 
the steel mill, is going to disappear?
    So, you know, it is a conversation that you have got to 
allay people's fears, and you have got to talk to them about 
the kinds of jobs that will be coming to their region, how they 
can train for those jobs because some of the skill sets that 
you have as a coal miner are not necessarily transferable to 
doing, you know, cable installation, although, you know, they 
are pretty talented men, mostly men, some women, and can easily 
adapt to those skills, but it will take training. And you have 
got to show that the jobs are there, not just train somebody 
for a job that may or may not exist, which is why I say it is 
important for the jobs to be created first as things start to 
change.
    And, you know, carbon capture is a technology that is, you 
know, still being developed, but being used in some pilot 
programs. And, you know, I think if the idea is to reduce 
carbon emissions, which it is, and how we do that if we still 
use coal-fired power plants, but with zero carbon or very low 
carbon, then, you know, that is going to keep those jobs 
existing. Now, they may eventually disappear because coal will 
disappear. It is a finite resource, but that is 100 years in 
the future, but I think that you have to have the conversation. 
You have to show them. This isn't Missouri, the Show Me state, 
but you have to show people that you are serious about job 
creation, and they have to see the jobs exist.
    And, as I mentioned in my testimony, you can't go from a 
$30-, $35-an-hour job with a pension and healthcare and expect 
somebody to go into a warehouse job for $15 an hour. You know, 
nobody is going to cut their mortgage in half. Nobody is going 
to cut their gas bill or electric bill in half. Of course the 
best way to do it is unionize those jobs, but there has got to 
be a way to make sure that folks aren't losing their economic 
viability through transition.
    Mr. Khanna. Thank you, Mr. Bloomingdale. You had very 
powerful testimony that I think we should all hear. I have two 
minutes left and questions for three of the panelists. I will 
ask the three questions and ask that you just spend 30 seconds 
or so on it. Mr. Dennison, if you could speak about what would 
you want in this infrastructure bill to allow for this new 
economy to flourish? What would be your bold ask if you could 
ask the President? Ms. Martinez, you have been such a champion 
on the THRIVE Act. What would the THRIVE Act and the trillion 
dollars mean for Detroit? And, Dr. Hamilton, you spoke 
brilliantly about the divergence between productivity and 
wages. What would be one or two things that we could do in this 
infrastructure bill that would help address that divergence so 
that workers actually were being paid for their productivity? 
Mr. Dennison, we can start with you.
    Mr. Dennison. Direct job creation for people who face 
barriers to job creation.
    Mr. Khanna. Terrific. That was succinct. Ms. Martinez?
    Ms. Martinez. Wealth creation for communities who have been 
suffering under the weight of pollution for the last three 
generations. Community solar, distributed energy, battery 
technology concentrated in those communities.
    Mr. Khanna. Thank you. And Dr. Hamilton?
    Mr. Hamilton. Direct hiring directly benefits workers, 
builds up the infrastructure for growth for workers and 
society, et al., and it disciplines the private sector in a way 
that says if you are going to hire American workers, you have 
to pay them at least this and offer them at least these 
conditions.
    Mr. Khanna. Thank you. Well, that was very well done. I now 
yield to the ranking member for five minutes of questions.
    Mr. Norman. Thank you, Chairman. Mr. Hawkins, President 
Biden's American Jobs Plan will cost American taxpayers $2.25 
trillion, which adds $5.7 trillion that was just spent on the 
COVID package. Of that, Biden is demanding hundreds of billions 
of taxpayers' dollars to be spent on vague climate priorities, 
such as electric vehicles for the Post Office. He has got 
dollars for 500,000 EV chargers. He is replacing 20 percent of 
the school buses with a fleet of electric buses. This is on top 
of some of the figures I have already cited: lumber prices up 
400 percent, gas prices that are through the roof. Is this the 
best way to boost our economy with the most vulnerable 
communities having to bear the brunt of this with lower income?
    Mr. Hawkins.[Inaudible.]
    Mr. Norman. Do you want to put your microphone on?
    Mr. Hawkins. I don't believe that it is, Ranking Member. 
The most troubling aspect of the plan is in the pay-for. When 
you look at the taxes that are being proposed in association 
with the plan, particularly the severe increase in the 
corporate tax rate, it is troubling because corporations don't 
actually pay taxes. What they do is they pass those taxes 
directly on to workers in the form of reduced job 
opportunities, consumers in the form of higher prices, and 
shareholders in the form of reduced share prices. So what you 
are looking at, particularly the impact on consumers is very 
troubling because consumers are already dealing with the 
current inflation rate increase of 12 percent. You could look 
at it as if Congress imposed a 12-percent sales tax on 
everything that the American consumer and American families 
need right now, and so we don't want to then hit workers and 
small businesses with a tax increase on top of that. And so 
that aspect is very troubling.
    Fortunately, there are bipartisan conversations going on 
right now on an infrastructure project that would be worth, you 
know, almost $1 trillion and that would fund a lot of what we 
look at as traditional infrastructure projects, but would do so 
through transportation fees and through redirecting existing 
allocated moneys toward infrastructure. You know, this plan, 
you know, we look at things, like broadband, you know. We look 
at $65 billion for that, $72 billion for water systems, $21 
billion for safety efforts, you know, et cetera, et cetera, $56 
billion for airports. These are things that can be done without 
those crippling tax increases that are going to really hit 
folks hard who can't avoid them.
    Mr. Norman. And I guess, though, the adage ``you can't tax 
your way into prosperity'' is true now, in your opinion?
    Mr. Hawkins. Absolutely. You know, what we were doing prior 
to the pandemic in trying to minimize counterproductive 
regulation and minimize the tax burden, particularly on those 
in the lower end of the tax scale through things like the 
increase in the earned income tax credit, and you know, 
doubling the standard deduction, those types of things created 
arguably the strongest economy that we have seen in a 
generation. And so we should move back toward that type of 
approach and avoid crippling tax increases.
    Mr. Norman. Well, as you say, corporations don't pay tax. 
The people pay the tax.
    Mr. Hawkins. They just pass it through.
    Mr. Norman. Right. Well, I applaud you on the opportunity 
zones. That is where private investment can go into 
disadvantaged areas. They have offered tax incentives where if 
you hold the property five years, you get a 50-percent discount 
on capital gains. If you hold it 10 years, you get 100 percent. 
That is incentivizing the private sector, so thank you for 
those type of jobs that you have. I have yet to see one job 
created from the Keystone pipeline that was canceled that this 
Administration promised would be there. Have you?
    Mr. Hawkins. I have not.
    Mr. Norman. OK. Thank you. My time is up. Thank you, Mr. 
Chairman.
    Mr. Khanna. Thank you. I now yield to our vice chair, who 
has been really a great partner in this committee, Rashida 
Tlaib.
    Ms. Tlaib. Thank you, Mr. Chair. Welcome to all of our 
witnesses here today. I am so incredibly proud to see 
Michigan's own, 13 District's own Michelle Martinez, the 
executive director of Michigan Environmental Justice Coalition 
that brings so many amazing organizations together, and she has 
been a fierce fighter. The first time I was exposed to Ms. 
Martinez was when she was with Sierra Club Detroit. And I was 
going door-to-door, and I saw white crosses in front of 
people's homes, wanted to know what that was about. And it was 
a campaign that the organization was doing to expose the human 
impact of doing nothing on climate, and people had white 
crosses in front of their homes if someone in their home died 
of cancer, survivor of cancer, was experiencing it, and it was 
eye opening at that point. I grew up in Southwest Detroit where 
the community had no idea what was really happening behind the 
polluted clouds, the odor that was coming through our windows, 
and now fully understand the really human toll on that.
    I really, truly want to talk about the human cost. I know 
folks are talking about taxes and all those kinds of things, 
but really the true human cost on the American people on doing 
nothing about climate crisis. We talk about climate crisis here 
in Washington all the time, but I really think we always lack 
the understanding of really the cost. If you want to look at 
the economy, how the cost to the economy is when we do nothing, 
and, really, the human cost, to me, is something that we can't 
look away when we talk about forgotten communities like the one 
in my district.
    And, Mr. Chair, I don't know if you know this. Literally, 
in the shadows of a Marathon oil refinery, across the street 
from there is a playground and a rec center where we had one of 
the committee hearings like this there. And as many of you all 
celebrate with your community, you know, cutting the ribbon and 
opening parks, and, you know, public spaces, my community in 
Boynton in Southwest Detroit, 48217 community, celebrated the 
installation of a toxic air monitoring station that they 
finally were able to get an air monitor to monitor the toxic 
emissions from the residents that were forced to breathe them 
in. So you understand the human cost of doing nothing. And so I 
really want to ask Ms. Martinez, you know, what does it truly 
mean to be forgotten when it comes to policy and when it comes 
to when you look at budgets that are coming out of Washington, 
DC, and it leaves communities like ours behind? What is the 
human toll on the people that we are supposed to be fighting 
for here in Congress?
    Ms. Martinez. Thank you, Congresswoman Tlaib, and thank you 
for your leadership in this. It really is taking every single 
one of us in Southwest Detroit and all over Michigan to, you 
know, scream from the rooftops that, you know, when you have 
kids that are being born with asthma, they don't have a fair 
chance. When you have kids who are locked in their homes, not 
because of COVID, but because we have been out of attainment, 
we have had illegal levels of sulfur dioxide since 2008. You 
know, kids are going to their grandparents' funeral at 60 or 65 
years old from ailments associated with pollution, cancer, and 
heart disease. Families are being robbed of that special 
connection and grief and trauma is put in its place. And so we 
have seen now more than ever that, you know, healthy households 
are the building blocks of a strong and joyful community. 
Nothing is more apparent than that during COVID.
    And so all of our forgotten communities, you know, it 
really means closing your eyes and saying I don't care where 
fossil fuels come from, what harm they cause, or where they end 
up because they come from Southwest Detroit. They run through 
native lands in the Traverse Bay area. They spill in the 
Kalamazoo River. And at every point, from fracking to pipeline, 
to burning petroleum coke in the coal plant, or ending up in 
oceans as plastic, with each dirty intersection of fossil fuel 
production, we close our eyes and we try to forget who suffers 
most for corporate greed, and it is Black, brown, indigenous, 
Latinx communities.
    So status quo, Congresswoman, it means more pollution. It 
means allowing the rush for gas to be built out in Michigan and 
poison our Great Lakes. Every time we invest in these false 
solutions, it is an opportunity cost to our future, to equity, 
to climate justice. So we really have to understand the scale 
of the moral question before us, right? Act now and save 
millions of lives or wait, have it cost 10, 20 times more, and 
allow those false solutions to take hold, sacrificing humans, 
millions of non-human people, non-human lives, right? And it is 
not alarmist, right? This is a well-studied scientific 
observation from climate scientists. So, you know, urgency of 
now, right, and going bold is our charge, is our challenge. So, 
you know, that is our plea from Detroit, right, that we really 
need this for jobs, for our future, for our kids, and for the 
Great Lakes.
    Ms. Tlaib. Thank you so much. And, Mr. Chair, I would love 
to share with our colleagues some of the fraudulent activity of 
opportunity zones by billionaires who have gotten their areas 
designated, even though they didn't meet the Census 
requirement, Mr. Chair. That is something I would love to be 
able to fully investigate when a billionaire can use our 
opportunity zone that was supposed to be meant for poor 
communities being used in wealthy communities like downtown 
Detroit where it isn't helping communities like ours. Thank 
you. I yield.
    Mr. Khanna. Thank you, Vice Chair Tlaib. I now recognize 
Mr. Gibbs for his five minutes of questions. If panelists could 
just mute.
    Mr. Gibbs. Thank you, Mr. Chairman. Other than Mr. Hawkins 
and my colleague, Mr. Norman, everybody else has seemed to have 
forgotten that before the pandemic, we had the lowest 
unemployment in years. We had the lowest unemployment in our 
minority communities. We had the highest real wages, most 
discretionary income in our lifetimes. And since then with the 
pandemic, which obviously caused a lockdown and a lot of things 
happened, but we did have bipartisan solutions last year that 
saved lots of jobs and lots of businesses that was passed on a 
bipartisan basis. And now what we have seen happen since then, 
when the economy is coming out, the lockdowns are ending, we 
have about 9 million jobs in this country that aren't filled.
    The thing I hear from businesses all the time is we can't 
get workers. We can't get workers. They are paying extra, they 
are signing bonuses, they are doing everything they can because 
they are all in very a competitive position fighting for 
workers. And what has happened now, we have had an 
Administration on the other side of the aisle, they have 
killed, well, I guess, probably millions of jobs, but at least 
thousands of jobs, when they killed the Keystone pipeline. They 
are also hurting the environment because that oil field in 
Canada is still going to get produced. It is going to be 
trucked out or trained out, railroaded out, instead of a 
pipeline, killing the border wall that killed a lot of steel 
workers' jobs and the impact of that. So right there were 
thousands of jobs that were killed in just a matter of months.
    And now we have seen inflationary pressure. We have seen a 
tax now on our lower-income people because of inflationary 
pressures, of higher gas prices, over $3 a gallon, higher food 
prices. Their cost of living is going up. And now they are 
talking about increasing taxes in an economy that is just 
struggling to come out of a very unprecedented episode of the 
pandemic. One way, at the 50,000-foot level, we can get out of 
this and help people get back to their lives is don't continue 
the policies we had to do last year on a bipartisan basis 
because the stimulus checks were needed then, but now they are 
causing people an incentive not to go to work. The extended 
unemployment is killing jobs--not killing jobs--killing people 
not to come back to work, and there is suffering in our 
business community, and these policies have to change. And I 
think we always need to remember what the situation with the 
economy was before the pandemic, and, fortunately, since our 
economy was so strong before the pandemic, it has actually 
helped us, I believe, to get through the pandemic now as we 
claw our way out of it.
    Mr. Hawkins, opportunity zones, I am really excited about 
it. My friend, Senator Tim Scott, you guys worked on that and 
got that done. Can you explain a little further, you know, how 
that actually works, how it brings capital investment into 
certain areas, and what has been the impact since it has been 
instituted?
    Mr. Hawkins. Sure. Thank you, Representative Gibbs. What we 
did there is we gave Governors the ability to designate one-
quarter of the distressed communities in their states as 
opportunity zones, as places that were eligible for this 
particular type of investment. And every opportunity zone is 
going to have a poverty rate that is greater than 20 percent, 
and is going to have an average income that is less than 80 
percent of the state average. And so, you know, opportunity 
zones themselves, you know, have the effect of being 
disproportionately minority and disproportionately areas that 
were affected by, you know, de-industrialization, part of what 
we are looking at in this hearing.
    And so we gave Governors, you know, sort of three non-
binding criteria. We asked them to look for areas where there 
was significant social disruption and economic disruption. We 
asked for them to look for areas where there was significant 
opportunity, a chance for a potential investor to turn a dollar 
into $10, and, finally, areas where there were mutually 
reinforcing state, Federal, and local programs that could 
really put the policy on a strong footing. And Governors did a 
very good job, whether Democrat or Republican, in selecting 
areas according to what the needs of their state were and the 
aspects of the----
    Mr. Gibbs. But it really did streamline investment capital 
coming into those areas, right?
    Mr. Hawkins. Absolutely.
    Mr. Gibbs. Because you can't grow jobs, you can't grow 
businesses if you don't have capital, right?
    Mr. Hawkins. Absolutely, and one of the other witnesses 
specifically pointed out the importance of place-based 
investing, and, you know, opportunity zones is not a panacea, 
but it is a great example of very thoughtful place-based 
investing.
    Mr. Gibbs. I am out of time, but, like I said, we could do 
a lot of things, but some of the policies that have been 
enacted have been disastrous to the economy in just a few short 
months. I yield back.
    Mr. Khanna. Thank you, Mr. Gibbs. I now want to recognize 
Mr. Gomez, who was very helpful in inviting some of the 
panelists and conceiving of this hearing. Mr. Gomez?
    [No response.]
    Mr. Khanna. OK. Do we have Ms. Bush here? I know they are 
going to call votes soon. Is Ms. Bush on?
    [No response.]
    Mr. Khanna. There is Ms. Bush. Ms. Bush, are you ready to 
have your five minutes of questioning?
    Ms. Bush. Yes, I can go.
    Mr. Khanna. Thank you. You are recognized.
    Ms. Bush. Here we go. OK. Sorry. I couldn't get my mute 
off. St. Louis and I thank you, Chairman Khanna, for convening 
this timely hearing. The earth has already warmed about 1 
degree Celsius above pre-industrial levels. If we are going to 
stay below the catastrophic level of 1.5 degrees Celsius of 
warming, we must immediately decrease greenhouse gas emissions. 
This is an issue that hits so close to home for me. In the 
past, I have been unable to afford air conditioning in a city 
with sweltering summers that are hotter than ever before with 
11 more 90-degree days per year than when I was born. We are 
already paying for climate change in our community year after 
year from extreme heat, high energy bills, and pervasive gun 
violence. As a single mother that has lived in my car with two 
kids, I know that people, predominantly Black, brown, and 
indigenous people, are suffering right now. We need to take 
bold action. We need a green new deal.
    The greenhouse gas effect is not a switch that we can 
simply turn off, and it will take years of sustained 
investment--we know this--years to fully decarbonize our 
economy. The amount of carbon dioxide in the atmosphere reached 
a record high in May at 419-parts-per-million, far more than 
what scientists estimate to be the upper limit of a safe level 
for carbon dioxide, which is, we know, no more than 350-parts-
per-million in the atmosphere. Every increase represents 
additional fossil fuels burned in our communities, elevating 
the risk of asthma, cancer, and other illnesses. This is a 
racial justice issue. Ms. Flowers, how is climate change 
already disproportionately affecting Black communities?
    Ms. Flowers. Well, thank you for the question, 
Congresswoman Bush. I can just start off by talking about, you 
know, what I am seeing firsthand. We are seeing in this area, I 
mean, right now there is a tropical depression off the coast 
of, you know, of the Gulf, and I am in Alabama. And what 
happens in communities of color oftentimes or poor communities 
or rural communities, people are living in mobile homes, they 
are already dealing with high power bills because of heat. I 
mean, it is in the 90's. It has been in the 90's here for a 
number of days. I am sitting up here now with air conditioning 
on to keep from sweating, you know, but what about those people 
that are living in these rural communities, these mobile homes 
that don't have access to that? And we are also seeing that 
people that have issues with asthma being compounded by the 
pollen in the air. I mean, I probably will continue to wear a 
mask myself because I have respiratory issues. One of the 
things that I have learned during COVID and wearing a mask is 
that I have fewer respiratory problems if I wear a mask, but 
what does this say about our air?
    Ms. Bush. Right.
    Ms. Flowers. And what does this say about a lot of people 
that don't have access to that? So we are seeing lots of 
illnesses that have been exacerbated. In our communities, we 
are seeing tropical diseases that you normally don't see in the 
United States, like hookworm and other tropical parasites. So I 
think that through poor communities, communities of color, we 
are going to see a disproportionate amount of healthcare 
disparities.
    Ms. Bush. Right.
    Ms. Flowers. If we look at it through a lens of health, we 
will see that it is very devastating in communities that have 
already been left behind. But if I could just get a moment of 
privilege here to talk about opportunity zones.
    Ms. Bush. Yes. Can I come back to you? I have a couple more 
questions I need to get----
    Ms. Flowers. OK. I am sorry. I am jumping at the bit to----
    Ms. Bush. No, I am ready to hear it. Thank you. President 
Biden has pledged to slow the climate crisis, and the original 
American Jobs Plan offers a great start. However, I am very 
concerned that this bipartisan compromise will water down the 
plan, especially when its current level is a fraction of the 
investment needed to create millions of climate jobs and take 
the crisis on, at scale. Dr. Hamilton, does the American Jobs 
Plan call for enough investment to dramatically reduce 
emissions from fossil fuels?
    Mr. Hamilton. The answer is ``no,'' but I like your framing 
that it is a good start. And this hearing is about not just 
ensuring we have an adequate environment, but how we do it, the 
manner in which we do it. And, you know, building on my 
colleague, Catherine Flowers, the point is opportunity zones as 
a mechanism to bribe capital to come in and develop 
underdeveloped communities, it is not the best way to do it. It 
siphons off that resource in an indirect way, and a question 
is, who benefits? Who benefits from that? Those that already 
have existing capital. It hastens gentrification and still 
leaves workers vulnerable to the imbalance of power, only this 
time the state is facilitating this imbalance of power. So we 
juxtapose that against an analysis where the public is directly 
investing in these communities and ensuring that the assets 
remain in those communities and still protect us against our 
inevitable climate change that is a result of our inactions.
    Ms. Bush. Thank you for that. Congress must pass a true and 
comprehensive climate and infrastructure package that 
immediately invests in public renewable energy. I will leave it 
there. Thank you, and I yield back.
    Mr. Khanna. Thank you, Ms. Bush. I now want to recognize 
Mr. Fallon for his five minutes of questioning.
    Mr. Fallon. Mr. Chairman, thank you for your graciousness. 
I appreciate it. Oh, the currency of identity politics. If we 
want to talk about creating jobs in this country, we have to 
unleash the American capitalistic tiger. We have been paying 
people to stay unemployed for far too long, and anytime you 
subsidize something and incentivize it, it is not a miracle at 
all that you are going to get more of it. The Federal 
unemployment payments are continuing until September 6th, and 
if some of my colleagues on the other side of the aisle had 
their way, they would extend them even further when what we 
need to do is eliminate them forthwith, right now, immediately. 
And I have a great idea. Let's stop paying people to be 
unemployed and incentivize them to go out and not exist, but 
live.
    Our country has reached the end of the COVID pandemic. If 
anybody wants a vaccine, it is available and it is free, and I 
would highly advise anyone, any adult in this country to get 
it. I got immunized the old-fashioned way. I had COVID and it 
was awful. It damn near killed me. It was terrible. I don't 
want anybody to go through an experience like that. Over 52-
and-a-half percent of the country has received at least one 
dose of the vaccine, our mask mandates have been rescinded, and 
we are finally returning to normal.
    Things about the identity politics that have bothered me is 
I have seen over the last several months in Texas and here in 
D.C. people accusing COVID of being racist. Fossil fuels today 
apparently is racist, and now the climate is racist. I was 
unaware of these things as a problem ever, but apparently some 
people believe they are. So let's look at some data and some 
facts. Our African-American brothers and sisters in 1900 had an 
average life expectancy of 33 years of age, and then through 
the next 120 years of further industrialization and apparently 
pollution, that life expectancy pre-COVID-19 was 74 years of 
age, a 224-percent increase. And before COVID, Blacks and 
Latinos had a very similar life expectancy. For whites, it was 
47 years in 1900, so a huge disparity between Blacks for sure, 
and it was raised pre-COVID to almost 80 years of age. So we 
are doing something right in this country.
    Let's not be fooled. The American Jobs Plan is another 
massive Biden spending plan that will yield not the results 
that we are being promised. And I believe in the American 
people, and I believe in entrepreneurialism, and I believe 
capitalism is the one economic system that has ripped mankind, 
humankind out of poverty. Socialism didn't do it. Communism 
didn't do it. Kinship gathering didn't do it. Merkleism didn't 
do it. Nothing did it. Capitalism did it, and now we are 
splitting hairs because we are not a perfect country.
    Mr. Hawkins, how much capital has been raised for 
investments through the opportunity zones?
    Mr. Hawkins. So far, according to the IRS, $24 billion, 
with a ``B,'' has been committed to opportunity funds, the 
vehicles for making these investments. It is estimated that 
about $75 billion will come into the zones over the next 10 
years, and so we are on track for that $75 billion. And, again, 
you know, the Council of Economic Advisers estimates that 1 
million Americans will be lifted out of poverty as a result of 
the policy. One thing that is important to note is that this 
policy is not a panacea for eliminating poverty. What it is, is 
it is a tool in the toolbox of community development. It is a 
particularly sharp tool, and it is a tool that has broad 
bipartisan support. So the Biden Administration and the HUD 
Secretary, as well as the folks at EPA and other areas have 
expressed support for opportunity zones. And the opportunity 
zones policy is the only aspect of the Tax Cuts and Jobs Act 
that have seen bipartisan amendments after tax reform.
    Mr. Fallon. And real quick, Mr. Hawkins, can you explain 
how opportunity zones help target investments to historically 
disadvantaged communities?
    Mr. Fallon. Yes. So what you are looking at is specific 
standards that were developed in line with the former new 
markets tax credit, basically where areas have high poverty 
rates and low income. And so from those areas, Governors were 
able to choose the areas within their states, 25 percent of 
those designated communities as opportunity zones.
    Mr. Fallon. Thank you. Mr. Chairman, I yield back.
    Mr. Khanna. Thank you. And I see Mr. Gomez has made it. 
Thank you for joining us, Mr. Gomez, and your help in planning 
this hearing. You are now recognized.
    Mr. Gomez. Mr. Chairman, thank you so much for having this 
important hearing. I was reading the title, ``Jumpstarting Main 
Street: Bringing Jobs and Wealth Back to Forgotten America,'' 
and I was thinking, I said, this America was never forgotten. 
It was the fact that corporations, and politicians, and 
decision-makers viewed this part of America as the dumping 
ground for their businesses, for their industries, and then 
they went out of their way to target these communities. I 
represent the East Side of Los Angeles. A battery plant, 
operating 30 years called Exide under a conditional-use permit 
that bled out lead and contaminated the properties surrounding 
Exide, impacting Boyle Heights and impacting East L.A. Decision 
makers tried to put an incinerator where? In Boyle Heights and 
East L.A. They tried to put a prison where? Boyle Heights and 
East L.A. They didn't forget about this part of America. They 
saw this part of America as their dumping ground that they 
could pollute at will with no repercussions.
    So we have to take hard steps to right these wrongs, to 
right what has occurred, not for years, but for generations. 
And when I say ``policymakers,'' when they were deciding where 
to put highways, where did they put them? Not on the rich side 
of the city. Not in an affluent part of the city. They put them 
where the working class and the poor live and destroyed 
communities in the process. So we need to look at this 
infrastructure not only as a way to bring back jobs, but to fix 
and address the wrongs that have been committed for 
generations. But we have to do that in a way that addresses the 
economic disparities that exist, but also helps cleanup our air 
and our water, and brings things forward. In California, we did 
some moving in the right direction on climate change. So much 
more to do.
    Ms. Martinez, I believe in a disproportionate investment of 
resources into these communities. I actually did a bill when I 
was in the legislature that said 50 percent of all greenhouse 
gas emission funds should go to these communities to address 
climate change, poverty, pollution. We only got 35 percent, but 
that is the benchmark for Biden's 40-percent mark. What do you 
think of this process of focusing on equity and real 
investment? Not just fair investment, but equitable investment?
    Ms. Martinez. Thank you, Congressman. Yes, you are 
absolutely right. One of the seminal documents written by 
environmental justice scholars is ``Toxic Race and Waste,'' 
when they researched where toxic waste sites were located all 
over the United States, found disproportionately located in 
Black and brown communities across the United States. And when 
they revisited that same body of research 25 years later, they 
had found that the problem of toxic waste, hazardous materials 
had actually gotten worse, not gotten better over one or two 
generations. So, indeed, we absolutely need to correct and 
course correct for the harms done in the past. Those toxins 
live in our body, and we have been paying with them, not only 
with our healthcare costs, but also with our housing values and 
the depression of our home values in our communities.
    So right now, we have scholars, like Nicky Sheats, Ana 
Baptista, Paul Mohai, who have followed the road of California 
in helping establish cumulative impact assessments that look 
not only at race, income, but also where those who are hardest 
hit by environmental contamination live. Where is that 
concentrated? In our communities, and we can pinpoint with some 
certainty exactly where folks are most vulnerable to 
environmental contamination and pollution. And once we 
understand the geography of that poisoning of communities, we 
can indeed utilize tools, like the Justice 40 initiative, to 
target direct investment to those communities.
    To Ms. Flowers' and others' testimonials, making sure that 
elite capture doesn't happen is the key there, so we have 
corporations that come in and swoop in, taking advantage of 
those funds that are meant to go to create jobs for low-income 
households, to rebuild schools, to make sure that we have 
adequate housing and education, and they go toward corporate 
profits and corporate investments for billionaires. So 
developing not only the safeguards for that, but absolutely 
directing those straight to our community for community direct 
investment with strong oversight to make sure that those jobs 
really land in the communities that are hardest hit. So 
absolutely, the tools are there. They have been vetted by 
states all over the United States, and they are ready for 
deployment by the Federal Government. Thank you.
    Mr. Gomez. Thank you, Ms. Martinez. I am passionate about 
this issue because people see policy on if it is working or 
not, with how it impacts their own personal lives and what they 
see on the ground. Not just statistics on a page, but what 
occurs in their own living rooms and dining room tables, in 
their own communities. So I think this is an important 
discussion to have, but we want to make sure that this 
investment in infrastructure and combatting climate change gets 
to the people that need the most help.
    With that, I yield back, Mr. Chairman.
    Mr. Khanna. Thank you, Mr. Gomez. In closing, I want to 
thank all our panelists for their remarks, and I want to thank 
Ranking Member Norman and all my colleagues for participating 
in this important conversation.
    With that, without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response. I ask our 
witnesses to please respond as promptly as you are able.
    Mr. Khanna. And I appreciate, again, your taking the time 
to testify before our subcommittee.
    This hearing is now adjourned.
    [Whereupon, at 2:47 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
